No: 21-5235

IN THE
SUPREME COURT OF THE UNITED STATES

VINCENT HOLTON,

Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
LANCE CANNON’S MOTION TO INTERVENE PURSUANT
TO RULE 27, FED.R.APP. P,

COMES NOW, the Petitioner, Lance Cannon, by and through his undersigned counsel,
pursuant to Rule 27, Fed.R.App.P., and respectfully requests this Honorable enter an Order
allowing Lance Cannon to intervene in the Case of Vincent Holton v. United States of America,
presently pending in this Court under Case No: 21-5235, and as grounds and in support thereof
states as follows:
rE The Petitioner, Lance Cannon, seeks to intervene in these proceedings.

Ds Lance Cannon and Vincent Holton were co-defendants at the District Court and were
tried jointly.

3. Lance Cannon and Vincent Holton’s appeals were consolidated for purposes of appeal,
and both Lance Cannon and Vincent Holton adopted portions of each other’s appellate briefs and
arguments which were applicable.

4. A joint published Opinion was issued in United States v. Lance Cannon and Vincent
Holton, 11" Circuit Case No: 16-16194 on February 3, 2021.
5. Intervenor, Lance Cannon, has reviewed the Petition for Writ of Certiorari filed by his
co-defendant, Vincent Holton, and the issues raised and arguments lodged are applicable to him.
6. Tn the interest of justice, this Honorable Court should allow Intervenor, Lance Cannon, to
join this action as a Petitioner.

WHEREFORE, based upon the foregoing grounds and authority, the potential Intervenor,
Lance Cannon, respectfully request this Honorable Court enter an Order allowing him to

intervene in this matter as a Co-Petitioner. t
Lhereby certify that on September 12 2021 I electronically filed the foregoing
document with the Clerk of the Court using CM/ECF. I also certify that the foregoing document
is being served this day on all counsel of record via transmission of Notices of Electronic Filing
generated by CM/ECF and via U.S. Mail to the Solicitor General, Room 5614, Department of
Justice, 10th Street & Constitution Avenue, N.W., Washington, D.C. 20530.

Respectfully submitted,

LAW OFFICES OF RICHARD ROSENBAUM
Primary Email: Richard@RLRosenbaum.com
Secondary Email: Pleadings@RLRosenbaum.com

S/RICHARD L. ROSENBAUM
Richard L. Rosenbaum, Esq.

Fla. Bar No: 394688

315 SE 7* Street

Suite 300

Fort Lauderdale, FL 33301
Telephone (954) 522-7007
Facsimile (954) 522-7003
